IN THE SUPREME COURT OF THE UNITED STATES

SCHREIBER, LT. COLONEL PATRICK
Petitioner
vs.

No:

21-0094

TRACY RENAUD, ACTING DIRECTOR, UNITED STATES
CITIZENSHIP AND IMMIGRATION SERVICES, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
August 23, 2021
cc:

See Attached List

PAUL WHITFIELD HUGHES
MCDERMOTT WILL & EMERY
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
EUGENE R. FIDELL
YALE LAW SCHOOL
SUPREME COURT CLINIC
127 WALL STREET
NEW HAVEN, CT 06511
REKHA SHARMA-CRAWFORD
SHARMA-CRAWFORD ATTORNEYS
AT LAW, LLC
515 AVENIDA CESAR E. CHAVEZ
KANSAS CITY, MO 64108

